APPENDICES

1a

APPENDIX A
United States Court of Appeals
for the Tenth Circuit
Cody William Cox,
Plaintiff-Appellant-Cross-Appellee,
v.
Don Wilson,
Defendant-Appellee-Cross-Appellant.
Nos. 18-1353, 18-1376
Decided: May 22, 2020
Appeal from the United States District Court
for the District of Colorado (D.C. No. 1:15-CV00128-WJM-NYW)
Before Hartz and Eid, Circuit Judges*1
Hartz, Circuit Judge.
Plaintiff Cody Cox sued Defendant Don Wilson, a
deputy in the Clear Creek County Sheriff’s Department, under 42 U.S.C. § 1983. Cox alleged that when
Wilson shot him in his vehicle while stopped on Inter-

* * The late Honorable Monroe G. McKay, United States Senior
Circuit Judge, heard oral argument and participated in the
panel’s conference of this appeal, but passed away before its final
resolution. The practice of this court permits the remaining two
panel judges, if in agreement, to act as a quorum in resolving the
appeal. See United States v. Wiles, 106 F.3d 1516, 1516, n* (10th
Cir. 1997); 28 U.S.C. § 46(d).
1

2a
state 70, Wilson violated the constitutional prohibition against the use of excessive force by law-enforcement officers. Plaintiff appeals the judgment on the
jury verdict against him. He argues that the district
court erred in failing to instruct the jury to consider
whether Wilson unreasonably created the need for the
use of force by his own reckless conduct. We have jurisdiction under 28 U.S.C. § 1291 and affirm. Although the district court incorrectly stated that the Supreme Court had recently abrogated this court’s precedents requiring such an instruction in appropriate
circumstances, the evidence in this case did not support the instruction. No law, certainly no law clearly
established at the time of the incident, suggests that
Wilson acted unreasonably up to and including the
time that he exited his vehicle and approached Cox’s
vehicle.
I.

Background
A. The Shooting

Cox was shot on January 31, 2014, after a car
chase on Interstate 70. It had been snowing so the Interstate was wet, and some parts were snow-packed
or icy. The first officer to pursue Cox was Clear Creek
County Deputy Sheriff Kevin Klaus. Although Klaus
testified about his observations during the pursuit,
the only evidence relevant to the propriety of Wilson’s
actions is what Wilson observed or what he was informed of by others. Therefore, our account of what
happened before Wilson joined the pursuit is limited
to what was broadcast on police radio channels that
Wilson heard.
The radio traffic indicated a dangerous situation.
It began as Cox’s Toyota pickup passed Exit 235 on
the interstate. The dispatcher said, “[W]e’ve got about

3a
three 9-11 calls.” Aplt. App., Vol. VII at 1566. An officer reported that Cox had “I-70 pretty-well blocked
up behind him and he’s having a hard time getting up
the road.” Id. at 1567. The officer described the vehicle
as a “Silver Tacoma with damage all over the body and
a camper shell on the back.” Id. Klaus reported that
at about mileage marker 232½, Cox “just wiped out in
the, uh, number one lane. He’s – was all over the
road.” Id. at 1568. Klaus also noted that his police vehicle did not have a siren. Id. Klaus then reported that
near Exit 232 the pickup “got stuck, but he’s trying to
get away again. I’m not going to contact until I get
some cover.” Id. at 1569. He said: “I verbally told the
party to turn off his car. I do have a good look of – at
him, and he’s taking off again. Westbound. All over
the road.” Id. An officer reported that traffic was “almost at a standstill” about 4 miles ahead. Id. Klaus
said he needed help from someone with a siren and
reported that there was “nobody in front of this guy,
but we have a lot behind me.” Id. After the other officer reported that he was at Exit 228, Klaus responded, “Uh, the way he’s driving, I doubt we’ll make
it that far.” Id. Another officer stated that he had
“spike strips” (also referred to by officers as stop
sticks) and would join the two police vehicles already
at Exit 228. Id. at 1570. Klaus then reported that Cox
was driving 60 miles per hour, then 70, and then 80
at mileage marker 230½.
After an officer reported that westbound traffic
was stopped about a mile and a half ahead, Klaus
said, “[W]e just caught up with this traffic. He is not
going to stop.” Id. Klaus continued, “[W]e’re going to
have to, uh, take some physical action on this vehicle.
This guy has got to be very drunk, and he is not stopping.” Id. at 1571. Shortly after that, Klaus reported,
“We’re in bumper-to-bumper traffic now at the 229½.

4a
He is not stopping. He’s just showing me a peace sign.”
Id. Another officer informed the others that he was at
the 228 offramp with spike strips.
About that time, Wilson, whose vehicle had a siren, had caught up with Cox and taken over from
Klaus as leader of the pursuit. For the next mile, traffic became heavily congested, moving slowly in a stopand-go fashion. The pursuit proceeded at speeds between 5 and 15 miles per hour. Wilson observed Cox
continue to drive dangerously. Each time Cox was momentarily stopped by the traffic, he would wait for an
opening and then accelerate through any gaps in the
cars, losing traction and fishtailing wildly nearly a
dozen times and coming very close to striking nearby
vehicles. He refused to pull over in response to Wilson’s lights and sirens or Wilson’s repeated orders
over his loudspeaker that Cox stop his vehicle. Wilson
believed that Cox was not going to stop.
Wilson was able to pull along the right side of
Cox’s vehicle, which was in the left-hand lane about
five feet from the guardrail, while traffic continued to
move very slowly in a stop-and-go fashion. Wilson had
his window down and motioned for Cox to roll down
his window, which Cox did. But Cox continued to ignore Wilson’s repeated orders to turn off his engine.
On several occasions Wilson observed Cox drop his
right hand down to his right hip; given the circumstances, Wilson assumed that Cox was reaching for a
firearm. Cox kept driving forward when possible, rolling up a few feet each time the traffic moved forward.
Wilson believed that Cox was striking the rear
bumper of the car in front of him, driven by Sarah Kincaid, and pushing her car forward each time that he
pulled ahead. But Wilson testified that he was mistaken on this point; he said that his perceptions at

5a
that moment were impaired because he was concentrating on giving Cox instructions and determining
whether Cox had a weapon.
Finally, Kincaid fully stopped her car, requiring
Cox to stop. Kincaid stopped because she thought that
Wilson wanted her to do so. But Wilson and Kincaid
had not communicated at any point and Kincaid kept
the engine running; so Wilson had no way of knowing
that Kincaid was intentionally blocking Cox and
would continue to do so even as traffic moved forward
in front of her.
Klaus stopped his vehicle about 10 feet behind
Cox. By this point Wilson had drawn his firearm and
pointed it at Cox, again ordering Cox to turn off his
engine. While Cox was boxed in, Wilson believed he
had a brief window of time to get inside Cox’s car and
take the keys out of the ignition. He decided that
prompt action was necessary because he believed that
the next stretch of highway posed increasing dangers
for the chase (for example, there was a crossover area
a mile ahead where Cox could have driven into oncoming traffic), and that Cox could, in the slow-moving
traffic, avoid the stop sticks that police had laid out at
the next exit. Based on the radio transmissions, Wilson thought that officers providing support for the
chase about a half mile to a mile down the road were
not coming to assist him.
Wilson said that when he exited his vehicle, it was
a car length ahead of Cox in the lane to the right. With
his firearm drawn he moved toward Cox, again telling
Cox to turn off his engine. Almost immediately, he
shot Cox through the open passenger window, striking Cox in the neck. The shooting incident, from the
time Cox’s vehicle came to a complete stop to the time

6a
that Wilson shot Cox, probably took about a minute.2
The shot to the neck rendered Cox quadriplegic.
There was no dispute at trial regarding Wilson’s
knowledge of the police radio traffic before he took
over the lead of the pursuit; nor was there any dispute
regarding the stop-and-go nature of the traffic once he
took the lead, Cox’s dangerous driving, or Cox’s refusal to comply with Wilson’s repeated orders for Cox
to turn off his engine. But the eyewitness trial testimony about the moments immediately preceding the
shooting was not entirely consistent. Wilson claimed
that before he stepped from his vehicle onto the highway, he witnessed Cox roll his car forward and backward twice. When he stepped onto the highway, Cox
had backed up to a point completely behind his patrol
car. He said that he shot Cox because Cox attempted
to drive forward and to the right, toward his patrol
car, in a manner that caused him to believe that he
was going to be crushed and perhaps killed between
the two vehicles. Klaus, however, testified that Wilson
stopped his patrol car right next to Cox’s car, and that
Cox moved his car only once (a foot backward and then
a foot forward) after coming to a complete stop behind
Kincaid. Kincaid testified that Wilson had not fully
exited his vehicle when he shot Cox, and Cox had not

The duration of the incident, from the time that Cox’s car came
to a complete stop to the time of the shooting, is somewhat uncertain. Klaus testified that he watched Cox’s stopped car for less
than a minute before exiting his car, and that Wilson shot Cox
about four seconds later. Wilson testified based on the radio
transmissions that the incident took about one minute and 15
seconds. Kincaid testified that the incident took “seven and a half
minutes,” Aplt. App., Vol. I at 181, but admitted that her perception was affected by the stress of the moment.
2

7a
moved his vehicle after stopping behind Kincaid with
Wilson to his right.
Cox testified that he had no memory of the car
chase or the shooting incident except that he recalled
a silhouette of a person who came up to his window
while he was stopped in traffic, he heard some words,
and he hit the vehicle in front of him before losing consciousness.
B. Procedural History
Cox filed suit in the United States District Court
for the District of Colorado asserting a single claim
under 42 U.S.C. § 1983: namely, that his shooting constituted the use of excessive force in violation of the
Fourth Amendment’s protection against unreasonable seizure. Wilson asserted the defense of qualified
immunity.
There have been two jury trials on Cox’s claim.
The first jury returned a verdict in favor of Wilson, but
the district court vacated the judgment because of
misconduct at trial by defense counsel (who has since
been replaced) and ordered a new trial. After Cox
rested his case in the second trial, Wilson moved under Fed. R. Civ. P. Rule 50(a) for a judgment as a matter of law on his qualified-immunity defense. He renewed this motion at the close of evidence, but the
court denied the motion. The second jury also rendered a verdict in favor of Wilson.
Cox raises only one issue on appeal. He contends
that the district court improperly failed to instruct the
jury that it could consider Wilson’s reckless conduct
before the shooting in determining whether the shooting violated the Fourth Amendment. In his response
to Cox’s appeal and in support of his own cross-appeal,

8a
Wilson argues that the district court committed several errors during the trial. But because we affirm the
judgment in Wilson’s favor, we need not address those
matters.
II.

Discussion

In an excessive-force case, as in other Fourth
Amendment seizure cases, a plaintiff must prove that
the officer’s actions were “objectively unreasonable,”
taking into account the “totality of the circumstances.”
Estate of Larsen ex rel. Sturdivan v. Murr, 511 F.3d
1255, 1259–60 (10th Cir. 2008) (internal quotation
marks omitted). Cox argues that the district court
erred in failing to instruct the jury that in determining the reasonableness of Wilson’s use of force, it could
consider whether Wilson’s own reckless conduct unreasonably created the need to use such force.
According to Cox, the district court’s mistake was
in changing the unreasonable-force jury instruction
from what the court had used at the first trial. The
court’s instructions were almost identical to those it
had previously given regarding what Cox needed to
prove to establish his claim against Wilson. In both
trials the court told the juries that the burden was on
Cox “to establish by a preponderance of the evidence
each of the following elements” of his excessive-force
claim: “First: [Wilson] deprived [Cox] of his federal
Constitutional right not to be subjected to unreasonable force while being stopped; Second: [Wilson] acted
under the color of state law; and Third: [Wilson’s] acts
were the proximate cause of damages sustained by
[Cox].” Aplt. App., Vol. VII at 1595. The court then instructed the juries on the “Factors To Consider When
Determining Whether Plaintiff Has Proven The Elements Of His Claim.” Id. at 1596. It told the juries
that they could consider whether Cox had proved at

9a
least one of the following (each of 9 which would have
sufficed to establish a violation of his Fourth Amendment rights): (1) “that deadly force was not necessary
to prevent [Cox] from escaping”; (2) “that [Wilson] did
not have probable cause to believe that [Cox] posed a
significant threat of serious physical injury to [Wilson] or others”; or (3) “that it would have been feasible
for [Wilson] to give [Cox] a warning before using
deadly force, but [Wilson] did not do so.” Id. at 1596–
97. And the court told the juries that they should “consider all the relevant facts and circumstances [Wilson]
reasonably believed to be true at the time of the encounter,” and that the inquiry “is always whether,
from the perspective of a reasonable officer on the
scene, the totality of the circumstances justified the
use of force at the time of the seizure.” Id. at 1597.
But the court did make one change to the factorsto-consider instruction given at the first trial, and that
is the basis of Cox’s appeal. The second-trial instruction excluded one sentence regarding the jury’s reasonableness inquiry. We set forth in regular type the
pertinent paragraph from the instructions at the second trial, and italicize the sentence that was included
at the first trial but not at the second:
The reasonableness of Defendant’s acts must
be judged from the perspective of a reasonable
officer on the scene at the time of the seizure,
that is, the shooting. One of the factors you
should consider is whether Defendant Don
Wilson was in danger at the time that he used
force. Defendant Don Wilson’s own conduct
prior to the shooting can be a part of your determination of reasonableness, but only if his
own reckless or deliberate conduct during the
seizure unreasonably created the need to use

10a
such force. The concept of reasonableness
makes allowance for the fact that police officers are often forced to make split-second judgments in circumstances that are sometimes
tense, uncertain, and rapidly evolving, about
the amount of force that is necessary in a particular situation.
Aplt. App., Vol. I at 57 (italics), VII at 1597 (regular
type). Cox objected to the instruction but was overruled. The court explained that it thought the deleted
language was legally incorrect and that Cox’s contention that Wilson’s conduct before the shooting was
reckless was unlikely to overcome qualified immunity.
See Aplt. App., Vol. VII at 1436 (“It’s my view that
some subsequent decisions since the first trial call[]
into question the continuing viability of that statement and that would be, in my view, the thinnest
grounds that the plaintiff would have on the qualified
immunity issue.”).
We ordinarily review a lower court’s refusal to
give a particular instruction for abuse of discretion.
See Morrison Knudsen Corp. v. Fireman’s Fund Ins.
Co., 175 F.3d 1221, 1231 (10th Cir. 1999). “That deferential review is superseded, however, by this court’s
de novo review of the instructions given to determine
whether, in the absence of the refused instruction,
they misstated the applicable law.” Id.; see Burke v.
Regalado, 935 F.3d 960, 1009 (10th Cir. 2019) (“We
review de novo whether, as a whole, the district
court’s jury instructions correctly stated the governing law and provided the jury with an ample understanding of the issues and applicable standards.” (internal quotation marks omitted)). Wilson argues that
we should review the denial of the requested instruction for abuse of discretion, while Cox argues that our

11a
review is de novo. But we need not resolve that dispute because on de novo review we hold that the instruction would have been improper in light of the evidence.
There is some Supreme Court authority supporting the district court’s view of the law. In City &
County of San Francisco, California v. Sheehan, the
Court stated that a plaintiff could not “establish a
Fourth Amendment violation based merely on bad
tactics that result[ed] in a deadly confrontation that
could have been avoided.” 135 S. Ct. 1765, 1777 (2015)
(internal quotation marks omitted). “[S]o long as a
reasonable officer could have believed that his conduct
was justified, a plaintiff cannot avoid summary judgment by simply producing an expert’s report that an
officer’s conduct leading up to a deadly confrontation
was imprudent, inappropriate, or even reckless.” Id.
(original brackets and internal quotation marks omitted).
Two years later, County of Los Angeles, California
v. Mendez rejected the Ninth Circuit’s “provocation”
rule, which had “permit[ted] an excessive force claim
under the Fourth Amendment where an officer intentionally or recklessly provokes a violent confrontation,
if the provocation is an independent Fourth Amendment violation.” 137 S. Ct. 1539, 1546 (2017) (internal
quotation marks omitted). “The rule’s fundamental
flaw,” as the unanimous Court explained, was that it
“use[d] another constitutional violation to manufacture an excessive force claim where one would not otherwise exist.” Id. The rule went beyond the “operative
question in excessive force cases,”—“whether the totality of the circumstances justifie[d] a particular sort
of search or seizure,” id. (internal quotation marks
omitted)—and instead “instruct[ed] courts to look

12a
back in time to see if there was a different Fourth
Amendment violation that [was] somehow tied to the
eventual use of force,” id. at 1547.
But Mendez made clear that it was not deciding
the validity of the proposition of law stated in the sentence omitted from the instruction by the district
court in this case. A footnote to the opinion states that
the Court was declining to address the view that assessing the reasonableness of the use of force requires
“taking into account unreasonable police conduct
prior to the use of force that foreseeably created the
need to use it.” Id. at 1547 n*. And after both Sheehan
and Mendez we held in Pauly v. White that “[t]he reasonableness of the use of force depends not only on
whether the officers were in danger at the precise moment that they used force, but also on whether the officers’ own reckless or deliberate conduct during the
seizure unreasonably created the need to use such
force.” 874 F.3d 1197, 1219 (10th Cir. 2017), cert. denied, 138 S. Ct. 2650 (2018) (internal quotation marks
omitted); see also id. at 1219 n.7 (“This has been the
law in our circuit since 1995. . . . The Supreme Court
very recently had an opportunity to resolve this issue
[in Mendez] but declined to do so . . . .”).
Nevertheless, the district court did not commit
any error by declining to include the sentence in the
instruction. A party is not entitled to a jury instruction just because it correctly states a proposition of
law. It must be supported by the evidence at trial. See
Farrell v. Klein Tools, Inc., 866 F.2d 1294, 1297 (10th
Cir. 1989) (“Under federal law it is error to give an
instruction when there is no evidence to support it.
There must be more than a mere scintilla of evidence
to support an instruction. Sufficient competent evidence is required.” (citations omitted)); Higgins v.

13a
Martin Marietta Corp., 752 F.2d 492, 496 (10th Cir.
1985) (“[A] party is entitled to an instruction of [its]
theory of the case only if the theory is supported by
competent evidence. The evidence introduced at trial
must warrant the giving of the instruction.” (citations
omitted)). In this case, including the sentence omitted
by the court would have denied Wilson the qualified
immunity to which he was entitled. Before addressing
the specifics of this case, we briefly summarize the
doctrine of qualified immunity.
Qualified immunity shields public officials “from
liability for civil damages insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person would have
known.” Pauly, 874 F.3d at 1214 (internal quotation
marks omitted). When a defendant asserts a qualified-immunity defense, the plaintiff bears the burden
of showing that (1) the defendant violated a constitutional or statutory right, and (2) this right was clearly
established at the time of the defendant’s unlawful
conduct. See id. We have discretion to address these
two prongs in either order, and “[w]e may resolve a
case on the second prong alone if the plaintiff fails to
show a right was clearly established.” Gutierrez v. Cobos, 841 F.3d 895, 900 (10th Cir. 2016).
The law is clearly established for qualified-immunity purposes only if it was sufficiently clear that,
at the time of the public official’s conduct, every reasonable official would have understood that the conduct was unlawful. See District of Columbia v. Wesby,
138 S. Ct. 577, 589 (2018). To make such a showing in
our circuit, “the plaintiff must point to a Supreme
Court or Tenth Circuit decision on point, or the clearly
established weight of authority from other courts

14a
must have found the law to be as the plaintiff maintains.” Callahan v. Unified Gov’t of Wyandotte Cty.,
806 F.3d 1022, 1027 (10th Cir. 2015) (internal quotation marks omitted). “[E]xisting precedent must have
placed the statutory or constitutional question beyond
debate.” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
(internal quotation marks omitted). The clarity of the
law must be viewed “in light of the specific context of
the case, not as a broad general proposition.” Pauly,
874 F.3d at 1222 (internal quotation marks omitted).
Here, qualified immunity did not completely protect Wilson from Cox’s claim. Cox was certainly entitled to an instruction on the unreasonable use of force.
The jury could have inferred from the testimony of Officer Klaus and of Ms. Kincaid that, contrary to Wilson’s testimony, Cox had not made any attempt to
drive his vehicle at Wilson when Wilson shot him, that
Cox did not pose a threat of imminent danger to Wilson after Wilson exited his vehicle, and that therefore
Wilson’s use of deadly force against Cox was unreasonable. But the jury found otherwise. And, in light of
the doctrine of qualified immunity, it would have been
contrary to law for the jury to hold Wilson liable based
on his conduct before the time of the shooting. Therefore, it would have been improper to give the jury an
instruction that would have allowed it to do so. We explain.
The sentence omitted from the instruction said:
“Defendant Don Wilson’s own conduct prior to the
shooting can be a part of your determination of reasonableness, but only if his own reckless or deliberate
conduct during the seizure unreasonably created the
need to use such force.” Aplt. App., Vol. I at 57. Cox
sought the instruction to allow him to base liability on
his claim that, even if Wilson was in imminent danger

15a
when he shot Cox, the only reason Wilson was exposed
to danger was that he unreasonably exited his police
vehicle and approached Cox’s pickup.
At trial Cox called as an expert witness a person
with excellent credentials who testified that Wilson’s
recklessness created the danger leading to the shooting. The expert opined that Wilson should not have
left his car to approach Cox because of the danger to
Wilson once he was on foot on the Interstate and in a
vulnerable position between his patrol car and Cox’s
vehicle. He said that Wilson should have remained in
his vehicle and attempted to deescalate the situation,
perhaps waiting for support from additional officers.
And he said that once Wilson stepped onto the Interstate, he should have moved to a position of safety at
the rear of his vehicle.
Perhaps it would have been safer for Wilson to remain in his vehicle. But there were other considerations at play. Cox had ignored repeated warnings from
Wilson to turn off his car’s engine. Wilson reasonably
believed that if Cox could continue to drive on the Interstate, he would present a profound danger to other
motorists. Although Cox was temporarily boxed in,
there was no reason for Wilson to believe that this situation would persist for any substantial amount of
time; Kincaid did not turn off her engine and had not
spoken with Wilson or otherwise informed him that
she intended to remain stopped in front of Cox indefinitely. If Kincaid moved forward, Cox could have continued his dangerous driving, which, according to both
Wilson and Kincaid, he appeared intent on doing. And
both Wilson and Kincaid testified that Cox was repeatedly reaching down for something, which they assumed was a firearm. If Cox was to be prevented from
further dangerous driving, the most reasonable thing

16a
for Wilson to do may have been to expose himself to
danger in order to disable Cox from driving.
More importantly, even if the jury was persuaded
by the expert’s trial testimony that Wilson had acted
unreasonably in leaving his vehicle, qualified immunity protected Wilson from liability on that score. As
Wilson frames the issue, the question on appeal is
whether there is:
a controlling case finding a Fourth Amendment violation due to the officer’s recklessly
causing the need to use deadly force, where after participating in a high speed and dangerous chase of a suspect, the officer exited his
vehicle during a temporary stop in traffic to
confront the driver with a show of deadly
force?
Aplee. Br. at 49. Cox has not presented, nor are we
aware of, any opinion by the Supreme Court or this
court, or, for that matter, any other court, holding that
an officer in similar circumstances acted unreasonably. It would have been error for the district court to
instruct the jury that it could find Wilson liable on a
ground for which he was protected by qualified immunity.
This court recently reached essentially the same
conclusion on an appeal where the issue was the same
as in this case—allegedly unreasonable police conduct
leading to the use of deadly force. In Pauly we reversed the denial of summary judgment in favor of the
officers, even though the evidence would support a
finding of the following events: Two women called 911
late one evening to report a drunk driver and then began to tailgate him. See 874 F.3d at 1203. At one point

17a
both vehicles stopped at an exit ramp and the occupants exchanged unpleasantries. See id. The driver
felt threatened and drove away (apparently without
the women following him), going the short distance to
his rural home, where he lived with his brother. See
id. The three responding officers determined “that
there was not enough evidence or probable cause to
arrest [the driver], and that no exigent circumstances
existed at the time. Nevertheless, the officers decided
to try and speak with [the driver] to get his side of the
story.” Id. at 1203–04. The officers located and then
approached the driver’s home, using their flashlights
only intermittently until they neared the front door.
See id. at 1204. The driver and his brother, fearing intruders related to the prior road-rage incident, asked
who was approaching, see id.; the officers responded
hostilely, yelling “Hey, (expletive), we got you surrounded. Come out or we’re coming in,” id. As a result,
the brothers, who had no reason to think the intruders
were police officers, armed themselves and shouted
that they had guns; one of the officers shot and killed
the driver’s brother after seeing him point a gun in the
officer’s direction. See id. at 1205. We held that the
officers’ reckless conduct—including approaching the
suspect’s home “while it was dark and raining and,
without knocking on the door, ma[king] threatening
comments about intruding into the home,” id. at
1215— understandably caused the suspect and his
brother to arm themselves, and therefore unreasonably created the need to use deadly force, see id. at
1211, 1213, 1221. We concluded that the threat “made
by the brothers, which would normally justify an officer’s use of force, was precipitated by the officers’
own” reckless actions, and that therefore the use of
deadly force was unreasonable. Id. at 1221.

18a
We nevertheless held that the officers were entitled to qualified immunity because there was no
clearly established law that such recklessness created
liability. Id. at 1223. We explained:
The statement . . . that the reasonableness inquiry includes an evaluation of an officer’s actions leading up to the use of force, is absolutely relevant in determining whether a police officer acted unreasonably in effecting a
seizure, as we illustrated above. But it cannot
alone serve as the basis for concluding that an
officer’s particular use of excessive force was
clearly established. . . . Because there is no
case close enough on point to make the unlawfulness of [the shooting officer’s] actions apparent, we conclude that [the officer] is entitled to qualified immunity.
Id. (internal quotation marks omitted).
Pauly illustrates the strength of the protection
provided by qualified immunity. Unlike Wilson’s decision to leave his vehicle to try to disable Cox’s vehicle,
the impropriety of the alleged actions by the officers
before the shooting in Pauly would be apparent to
most laypersons. Yet the Pauly officers were protected
by qualified immunity because of the absence of
clearly established law prohibiting their conduct. If
qualified immunity protects the officers in Pauly
against the claim of unreasonably creating a dangerous situation that led to the use of deadly force, surely
Wilson is similarly protected.
Cox argues that Wilson is procedurally barred
from raising qualified immunity on appeal because his
preverdict Rule 50(a) qualified-immunity motion was
not followed by a postverdict Rule 50(b) motion. See

19a
Kelley v. City of Albuquerque, 542 F. 3d 802, 817 (10th
Cir. 2008) (“[T]he precise subject matter of a party’s
Rule 50(a) motion—namely, its entitlement to judgment as a matter of law—cannot be appealed unless
that motion is renewed pursuant to Rule 50(b).” (emphasis added) (internal quotation marks omitted)).
But Wilson had no occasion or reason to file a Rule
50(b) motion because the jury’s verdict was in his favor. The motion-renewal requirement of Rule 50(b)
applies only to parties dissatisfied with the verdict—
that is, appellants. Now, as an appellee, Wilson can
defend the judgment on any ground supported by the
record, at least when it is fair to do so. See Feinberg v.
Comm’r of Internal Revenue, 916 F.3d 1330, 1334
(10th Cir. 2019), cert. denied, 140 S. Ct. 49 (2019).
There is no unfairness in affirming on the ground of
qualified immunity. Wilson properly invoked qualified immunity in the district court and has fully
briefed the issue on appeal.
We also reject Cox’s apparent assertion at oral argument that qualified immunity is a separate, nonrelevant issue, and not an issue on appeal, because the
jury was not 19 presented with deciding the issue. To
begin with, the argument is untimely. “Arguments
that are raised for the first time at oral argument
come too late to merit our attention.” United States v.
DeRusse, 859 F.3d 1232, 1240 n.3 (10th Cir. 2017)
(brackets and internal quotation marks omitted).
Moreover, were we to consider this argument, it would
fail because the clearly-established-law component of
qualified immunity is not a jury issue. See Griess v.
State of Colo., 841 F.2d 1042, 1047 (10th Cir. 1988)
(“[W]hether constitutional rights allegedly violated
were clearly established for purposes of qualified immunity . . . is a purely legal issue,” and therefore “is

20a
appropriate for resolution on appeal.” (internal quotation marks omitted)).
III.

Conclusion

We AFFIRM the district court’s judgment in favor of
Defendant Wilson

21a
APPENDIX B
United States Court of Appeals
for the Tenth Circuit
Cody William Cox,
Plaintiff-Appellant-Cross-Appellee,
v.
Don Wilson,
Defendant-Appellee-Cross-Appellant.
Nos. 18-1353, 18-1376
Decided: August 19, 2020
Before Tymkovich, Chief Judge, Briscoe, Lucero,
Hartz, Holmes, Matheson, Bacharach, Phillips,
McHugh, Moritz, Eid, and Carson, Circuit Judges.
ORDER
On May 22, 2020, the court issued its opinion and
judgment in these matters. An active judge of the
court then called a poll, sua sponte, to consider en banc
review of the panel decision. Subsequently, the panel
sua sponte granted panel rehearing to amend its May
22, 2020 opinion for clarification purposes, and circulated its amended opinion to the en banc court.
A majority of the judges in regular active service
voted against en banc rehearing, and as a result the
poll failed. See Fed. R. App. P. 35(a). Judges Lucero
and Phillips voted to grant en banc rehearing. Judge
Lucero has prepared the attached written dissent
from the denial of en banc rehearing, in which Judge
Phillips joins.

22a
Pursuant to the panel’s sua sponte grant of panel
rehearing, the original version of the opinion is withdrawn and shall be replaced by the attached amended
opinion. Because the amended opinion contains only
non-substantive changes that do not affect the outcome of this appeal, it shall be filed nunc pro tunc to
the date the original opinion was filed.
The mandate shall issue forthwith.
Entered for the Court

Clerk

CHRISTOPHER M. WOLPERT,

18-1353 & 18-1376, Cox v. Wilson
Lucero, J., joined by Phillips, J., dissenting from the
denial of rehearing en banc:
Because the panel decision in this case exponentially expands in this circuit the judicially created
doctrine of qualified immunity into an all-purpose, nodefault, use-at-any-time defense against asserted police misconduct, and because it clearly demonstrates
so much of what is wrong with qualified immunity, I
requested that my colleagues review the panel decision en banc. From the denial of that request, I respectfully dissent.
Before the panel was an appeal asserting instructional error at trial below, and on cross-appeal,
several unrelated evidentiary issues. Instead of expressly ruling on the merits of the issues raised and
granting the parties the due process to which they are

23a
entitled, the panel chose to openly entangle the previously denied and dismissed doctrine of qualified immunity into its analysis. It denied the parties a ruling
on the merits of their appeal and instead concluded
that because police misconduct in a prior case was arguably more egregious than the misconduct at issue
in this case—but was nevertheless shielded by qualified immunity—the deputy sheriff in this case is similarly protected by qualified immunity. Specifically,
the panel reasons that because the conduct in the
prior case was apparently “improp[er]” to “most laypersons” but not in violation of clearly established
law, it follows that the officer’s conduct in this case is
also not a violation of clearly established law. (Op. 18.)
I review the facts: the appellee, Deputy Wilson,
pursued a motorist who recklessly drove his vehicle on
an icy Interstate 70. Fortunately, the motorist, Cox,
drove into a traffic jam that forced him to slow down
and allowed Wilson and a second patrol car to box him
in. With Cox stopped, Wilson exited his car, approached Cox’s vehicle at the passenger window,
and—in the panel’s words—“[a]lmost immediately”
shot Cox in the neck. Cox was unarmed. He is now a
quadriplegic.
Suit followed. Deputy Wilson raised qualified
immunity in his Answer and, following discovery,
moved for summary judgment on the basis of qualified
immunity. On the finding that there was a conflict in
the evidence on point, the district court denied qualified immunity. Interlocutory appeal was not taken.
The case proceeded to trial and ended in a mistrial.
Only then did Wilson seek to bring an interlocutory
appeal based on the earlier denial of qualified immunity. Because it was untimely, a panel of this court dismissed the appeal. It added that in addition to being

24a
untimely, final judgment had not been entered. The
case again proceeded to trial and, following the close
of evidence in the second trial, Deputy Wilson sought
to raise qualified immunity again—this time in a Rule
50(a) motion for judgment as a matter of law. That
motion was denied. A jury verdict was entered favoring Wilson, and an appeal was taken by Cox, presenting a straightforward question: did the district court
err in failing to instruct the jury on his theory of the
case? Deputy Wilson cross-appealed on three unrelated damages and evidence issues. He did not appeal
the issue of qualified immunity but argued in a responsive brief that alternatively, the judgment below
could be affirmed on any basis supported by the record, including qualified immunity.3
In addressing the issue presented to it by the
appellant—whether error was committed in failing to
instruct on plaintiff’s theory of the case—the panel
acknowledges our decision in Higgins v. Martin Marietta Corp., 752 F.2d 492 (10th Cir. 1985), in which we
held that “a party is entitled to an instruction of [its]
theory of the case only if the theory is supported by
competent evidence.” Id. at 496. This test is satisfied
if the requesting party provides “more than a mere
scintilla of evidence to support an instruction.” Farrell
Following the second trial, Wilson attempted to appeal the district court’s denial of his Rule 50(a) motion in which he raised
qualified immunity, but he did not move for a directed verdict on
his qualified immunity defense under Rule 50(b). A pre-verdict
Rule 50(a) motion “cannot form the basis of [an] appeal.”
Unitherm Food Sys. v. Swift Eckrich, Inc., 546 U.S. 394, 406
(2006). The panel nevertheless granted qualified immunity notwithstanding this procedural default. This is but one more example of the panel choosing to ignore procedural default and hastening to use the “new and improved” mutated doctrine of qualified immunity
3

25a
v. Klein Tools, Inc., 866 F.2d 1294, 1297 (10th Cir.
1989). The panel acknowledges that the district court
misinterpreted Supreme Court precedent and our own
in denying Cox’s requested instruction, and it discusses the testimony Cox adduced in support of the
instruction from—as the panel put it—an expert with
“excellent credentials.” (Op. 10-14.) But rather than
reach the conclusion compelled by these acknowledgements, the panel resurrects the qualified immunity issue, and from it, fashions something akin to harmlesserror review: it concludes the court committed no error at all because “including the sentence omitted by
the court would have denied Wilson the qualified immunity to which he was entitled.” (Op. 12.)
As has been noted, the text of 42 U.S.C. § 1983
“makes no mention of defenses or immunities.” Baxter
v. Bracey, 140 S. Ct. 1862, 1862 (2020) (Thomas, J.,
dissenting from the denial of certiorari) (quotation
and alteration omitted). Qualified immunity is entirely a court-created doctrine. As concerns police officer misconduct, it stems from the Court’s 1967 decision, Pierson v. Ray, 386 U.S. 547, 556-57 (1967). Following its creation, which intended to prevent frivolous and harassing litigation, see Pearson v. Callahan,
555 U.S. 223, 231 (2009), the doctrine has mutated in
seemingly unending fashion. The case before us is Exhibit A of that continuing transformation. Much of the
problem with the expansion of the doctrine is exacerbated because the Court has failed to give direction on
(1) the scope of appellate court power to raise qualified
immunity as a basis for disposition of a case when
qualified immunity was denied by or not raised before
the district court, and (2) the required nexus of particular facts necessary to satisfy the clearly-established
element of qualified immunity analysis.

26a
In concluding that Wilson was entitled to qualified immunity, the panel relies solely on the second
prong of the qualified immunity inquiry—whether the
constitutional right violated “was clearly established
at the time of the defendant’s unlawful conduct.” (Op.
13 (citing Pauly v. White, 874 F.3d 1197, 1214 (10th
Cir. 2017), cert. denied, 138 S. Ct. 2650 (2018)).) But
it ignores that the district court denied qualified immunity to Wilson under this prong because the relevant “factual context [wa]s highly disputed.” See City
of Escondido, Cal. v. Emmons, 139 S. Ct. 500, 503
(2019) (“Use of excessive force is an area of the law in
which the result depends very much on the facts of
each case, and thus police officers are entitled to qualified immunity unless existing precedent squarely
governs the specific facts at issue.” (quotation omitted)). And worse, rather than compare the specific
facts of the present case with those of prior cases, the
panel satisfies itself with comparing the relative perceived egregiousness of police conduct in factually dissimilar cases.
Specifically, the panel relies only on the facts of
Pauly, a case that did not involve a car chase, vehicular pursuit, or any facts remotely similar to the facts
of the instant case. 874 F.3d at 1203-05. Rather, Pauly
involved a situation in which several officers, on foot,
approached the plaintiff’s rural home “using their
flashlights only intermittently until they neared the
front door.” (Op. 16.) Fearful that there were intruders, the plaintiff and his brother “asked who was approaching,” to which “the officers responded hostilely,
yelling[,] ‘Hey, (expletive), we got you surrounded.
Come out or we’re coming in.’” (Op. 16-17 (quotation
omitted).) In response, the brothers armed themselves, announced that they had guns, and one of the

27a
officers shot and killed one of the brothers after seeing
him point a gun in the officer’s direction. (Op. 17.)
These facts bear virtually no resemblance to
those of the present case. Nevertheless, the panel relies on Pauly to conclude that Deputy Wilson is protected by qualified immunity, stating:
Pauly illustrates the strength of the protection provided by qualified immunity. Unlike
Wilson’s decision to leave his vehicle to try to
disable Cox’s vehicle, the impropriety of the
alleged actions by the officers before the shooting in Pauly would be apparent to most laypersons. Yet the Pauly officers were protected
by qualified immunity because of the absence
of clearly established law prohibiting their
conduct. If qualified immunity protects the officers in Pauly against the claim of unreasonably creating a dangerous situation that led to
the use of deadly force, surely Wilson is similarly protected.
(Op. 18.)4 Thus, rather than attempt to compare the
particular facts of Pauly with the particular facts of
the present case, the panel compares its assessment of
the relative impropriety of wholly different misconduct in distinct qualified immunity cases to determine
whether the clearly-established prong is satisfied.5

The quoted language appears in the panel opinion as filed on
May 22, 2020.
5 On August 19, 2020, panel rehearing was granted, and the final
sentence in the foregoing quote was deleted. The following words
were substituted, nunc pro tunc: “So too, here.” This substituted
analytical standard, in my judgment, is even more deficient than
the standard announced in the deleted sentence. Apparently,
trial courts and appellate panels of this circuit need only cite to
4

28a
No precedent supports this novel, expansive inquiry. The Supreme Court has repeatedly warned
lower courts not to assess the clearly-established
prong at a high level of generality. See City of Escondido, 139 S. Ct. at 503 (“[T]he clearly established right
must be defined with specificity. This Court has repeatedly told courts not to define clearly established
law at a high level of generality.” (quotation and alteration omitted)). “Clearly established” means “the ‘contours of the right [are] sufficiently clear that a reasonable official would understand that what he is doing
violates that right.’” DeSpain v. Uphoff, 264 F.3d 965,
979 (10th Cir. 2001) (quoting Anderson v. Creighton,
483 U.S. 635, 640 (1987)). This inquiry must be “particularized” to the facts of the case, White v. Pauly, 137
S. Ct. 548, 552 (2017) (quotation omitted), and it
“must be undertaken in light of the specific context of
the case, not as a broad general proposition,” Mullenix
v. Luna, 136 S. Ct. 305, 308 (2015) (quotation omitted).
The panel opinion moves far afield of these
strictures. At a time when “courts of appeals are divided—intractably—over precisely what degree of factual similarity must exist” for a constitutional violation to be clearly established, Zadeh v. Robinson, 928
F.3d 457, 479 (5th Cir. 2019) (Willett, J., concurring
in part, dissenting in part), the panel opinion effectively signals to lower courts that they may circumvent issues of factual fit by relying on idiosyncratic assessments of the relative impropriety of officer misconduct. Shifting the focus from “particularized” facts
to nebulous notions of comparative impropriety places
a previous decision in which qualified immunity has been
granted and state, “So too, here.” Those words present no reviewable standard whatsoever.

29a
this case squarely into the conflict among our sibling
circuits in applying the clearly-established prong. See
id.; see also John C. Jeffries, Jr., What’s Wrong with
Qualified Immunity?, 62 Fla. L. Rev. 851, 852 (2010)
(“[D]etermining whether an officer violated ‘clearly established’ law has proved to be a mare’s nest of complexity and confusion. The circuits vary widely in approach, which is not surprising given the conflicting
signals from the Supreme Court.”).6 And it calls for
just “the sort of ‘freewheeling policy choice[s]’” the
Court has “disclaimed the power to make.” Ziglar v.
Abbasi, 137 S. Ct. 1843, 1871 (2017) (Thomas, J., concurring in part and concurring in the judgment) (quoting Rehberg v. Paulk, 566 U.S. 356, 363 (2012)).
Further, the panel’s most unusual resurrection
of the qualified immunity issue to correct a squarely
presented trial error similarly invites lower courts to
make “freewheeling policy choice[s]” inappropriate
under § 1983. Rehberg, 566 U.S. at 363. It is a fundamental principle that “[c]ourts do not, or should not,
sally forth each day looking for wrongs to right.”
Greenlaw v. United States, 554 U.S. 237, 244 (2008)
(quotation omitted). Instead, we generally “decide
only questions presented by the parties.” Id. (quotation omitted). Though the federal courts of appeals
disagree as to whether courts are empowered to raise

Illustrating the problem with the reasoning of the panel, it is
easy to identify cases in which officers committed arguably less
egregious conduct than Wilson and were not protected by qualified immunity. See, e.g., Est. of Ceballos v. Husk, 919 F.3d 1204,
1215-17 (10th Cir. 2019). The panel opinion creates and applies
a highly generalized inquiry likely to produce contradictory results in the future.
6

30a
sua sponte the affirmative defense of qualified immunity on behalf of the government,7 none have suggested appellate power extends to reversing the trial
court’s denial of qualified immunity when such reversal has not been appealed—until now. Thus, by resurrecting an issue raised, resolved, and not appealed,
the panel takes yet another step down the road of mutating the doctrine into an “absolute shield” against
consequences for the violation of constitutional rights.
See Kisela v. Hughes, 138 S. Ct. 1148, 1155 (2018) (Sotomayor, J., dissenting). As noted, this case is Exhibit
A of that metastasis.
For these reasons, the panel’s decision is neither “right [n]or just under the law.” Id. The modern
qualified immunity doctrine already sends the
“alarming signal to law enforcement officers . . . that
they can shoot first and think later.” Id. Our panel
opinion adds another signal: egregious police misconduct will go unpunished if the court can locate prior,
arguably more improper conduct that escaped liability. In other words, the Tenth Circuit now holds that
a reasonable officer would not “understand that what
he is doing violates [a constitutional] right,” Anderson,
483 U.S. at 640, if “worse” conduct has previously been
Compare Guzmán-Rivera v. Rivera-Cruz, 98 F.3d 664, 667-68
(1st Cir. 1996); Bines v. Kulaylat, 215 F.3d 381, 386 (3d Cir.
2000); Suarez Corp. Indus. v. McGraw, 125 F.3d 222, 226 (4th
Cir. 1997); Kelly v. Foti, 77 F.3d 819, 823 (5th Cir. 1996); Summe
v. Kenton Cnty. Clerk’s Off., 604 F.3d 257, 269-70 (6th Cir. 2010);
Narducci v. Moore, 572 F.3d 313, 323-25 (7th Cir. 2009); Greer v.
Dowling, 947 F.3d 1297, 1303 (10th Cir. 2020); Moore v. Morgan,
922 F.2d 1553, 1557-58 (11th Cir. 1991); and Robinson v. Pezzat,
818 F.3d 1, 11 (D.C. Cir. 2016), with Dean v. Blumenthal, 577
F.3d 60, 67 n.6 (2d Cir. 2009); Story v. Foote, 782 F.3d 968, 96970 (8th Cir. 2015); and Graves v. City of Coeur D’Alene, 339 F.3d
828, 845 n.23 (9th Cir. 2003).
7

31a
shielded by qualified immunity. This terrible precedent, thus created, is two-fold. One: it allows panels to
use qualified immunity, at any stage of litigation, to
uphold an otherwise erroneous decision of the district
court—notwithstanding a substantial dispute regarding the evidence; notwithstanding the denial of a previous motion not appealed in a timely manner; and
notwithstanding the district court denied qualified
immunity time and again. Two: it shields police misconduct from liability so long as any other government
officer at some point committed—in the panel’s
mind—more improper conduct and was not held liable. Together, these two pronouncements create a
carte blanche which can be scripted and negotiated to
counter the public interest and foster the violation of
constitutional rights by those charged with protecting
them.
Regrettably, this case is one of many illustrating that the profound issues with qualified immunity
are recurring and worsening. “Given the importance”
of these issues, we can no longer delay confronting
them. Baxter, 140 S. Ct. at 1865 (Thomas, J., dissenting from the denial of certiorari). Particularly in light
of recent—though not novel—unrest, at least one of
our sibling circuits has recognized that the relentless
transformation of qualified immunity into an absolute
shield must stop. See Est. of Jones by Jones v. City of
Martinsburg, 961 F.3d 661, 673 (4th Cir. 2020), as
amended (June 10, 2020). But as it stands in the
Tenth Circuit, the panel opinion allows courts to finesse ambiguities to avoid confronting the hard issues
presented. And that’s a denial of due process any way
you look at it. By continuing to await addressing deep
and troubling qualified immunity issues brought to
our attention time and again, we are complicit in this
denial.

32a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge William J. Martínez
Civil Action No. 15-cv-0128-WJM-NYW
CODY WILLIAM COX,
Plaintiff,
v.
DON WILSON,
Defendant.
Filed: August 5, 2016
ORDER DENYING DEFENDANT’S MOTION
FOR SUMMARY JUDGMENT
This case arises out of a police use-of-force incident between Plaintiff Cody William Cox (“Plaintiff”)
and Defendant Don Wilson (“Defendant”) that occurred on January 31, 2014. (ECF No. 1 at 1.) As a
result of this incident, Plaintiff brings suit against Defendant under 42 U.S.C. § 1983. (ECF No. 1 at 3.)
This matter is before the Court on Defendant’s
Motion for Summary Judgment (the “Motion,” ECF
No. 62), filed on December 11, 2015. Plaintiff responded to the Motion on December 31, 2015. (ECF
No. 71). On January 14, 2016, Defendant filed his Reply in Support of the Motion for Summary Judgment.

33a
(ECF No. 80.) For the reasons set forth below, the
Court denies the Motion.
I. BACKGROUND
A. The Pursuit
The following facts are undisputed, unless attributed to one party or another, or otherwise noted.
Deputy Kevin Klaus of the Clear Creek County Sheriff’s Office asserts that on Friday, January 31, 2014,
he received a report of a silver pickup truck that was
involved in a hit-and-run going west on I-70. (ECF No.
62-2 ¶ 2.) Plaintiff was the driver of the pickup, which
turned out to be a silver Toyota pickup truck. (See
ECF Nos. 71 at 1–2, 71-3 at 38.) Klaus pursued the
truck in his patrol vehicle with his emergency lights
on; however his siren was not working. (Id. ¶¶ 5–6.)
The road was slick due to a light covering of snow and
according to Klaus there were “a lot of cars on the road
heading to the mountains for the weekend.” (Id. ¶ 7.)
At approximately mile marker 232.5, Klaus asserts
that he first observed the silver pickup spinning out
of control and “fishtailing” back and forth as it drove.
(Id. ¶¶ 8–9.) Klaus continued to pursue the pickup and
reported that the vehicle was failing to yield to him.
(ECF No. 62-3 at 1.)
Defendant, another deputy sheriff with the Clear
Creek County Sheriff’s Office, heard Klaus’s report
and also began pursuing the silver pickup truck. (Id.)
Defendant caught up with Klaus and the pickup truck
near mile marker 230 where they were “nearly
stopped” in “stop-and-go” traffic. (ECF No. 62-4 at 8–
9.) Defendant turned off his siren and instead made
an announcement over his vehicle’s public address
system, saying, “[d]river of the grey truck, pull over

34a
and stop.” (ECF No. 62-3 at 1.) At some point, Defendant pulled alongside Plaintiff’s pickup on Plaintiff’s
right side, but Plaintiff continued forward. (Id. at 2.)
Defendant pulled alongside Plaintiff a second time
and rolled down his window. (Id.) Plaintiff rolled down
his passenger-side window as well. (Id.) When Defendant told Plaintiff to turn off his truck, Plaintiff responded “I will, I will.” (Id.) However, rather than
turn off his truck, Plaintiff accelerated through a gap
in traffic. (Id.) Defendant pulled alongside Plaintiff a
third time and Plaintiff once again said he would turn
off the vehicle, but continued through traffic instead.
B. The Shooting Incident
Finally, Defendant pulled alongside Plaintiff for a
fourth time near mile marker 228.5. (See ECF No. 623 at 2.) Plaintiff’s vehicle was stopped in the left lane
of traffic. (Id.) Defendant’s patrol vehicle was directly
to the right of Plaintiff’s and Deputy Klaus’s vehicle
was directly behind Plaintiff. (Id.) Directly in front of
Plaintiff’s truck was a vehicle being driven by Sarah
Nix, an unaffiliated witness to the incident. (ECF No.
62-6 at 1-3.) Each of these four drivers has provided
their version of the facts that took place when these
four vehicles met at mile marker 228.5. The Court will
now recount each of their stories.
1.

Defendant

Defendant spoke to Plaintiff through his driverside window and Plaintiff’s passenger-side window,
which were aligned. (ECF No. 62-3 at 2.) Defendant
again commanded Plaintiff to turn off his truck. (Id.)
Defendant claims that Plaintiff rammed the front of
his truck into Ms. Nix’s vehicle twice, rolling back
with each impact. (ECF No. 62-4 at 18–19.) Defendant

35a
pulled his vehicle ahead and to the right a few feet,
“so that [he] could exit [his] patrol car, without giving
[Plaintiff] an opening.” (ECF No. 62-3 at 2.) At this
point three or three and a half feet separated Plaintiff’s truck and Defendant’s vehicle. (ECF No. 62-4 at
21.)
Defendant exited his vehicle and approached
Plaintiff’s passenger door. (ECF No. 62-3 at 2.) As that
happened, Defendant says Plaintiff’s truck struck Ms.
Nix’s vehicle a third time. (ECF No. 62-4 at 17–18.)
Defendant claims that as he reached for the passenger
door handle on Plaintiff’s truck, the truck “turned [its]
wheels toward” Defendant and “came toward” Defendant. (ECF No. 62-3 at 2.) Defendant took two steps
backward and fired his sidearm at Plaintiff. (ECF No.
62-4 at 23.) The bullet from Defendant’s firearm
struck Plaintiff, who became unresponsive. (ECF No.
62-3 at 3.) After the shot, Plaintiff’s truck moved forward and struck Ms. Nix’s vehicle again. (ECF No. 624 at 22.) Defendant asserts that this was “the lightest
of all the strikes.” (Id.)
2.

Plaintiff

Plaintiff contests several of Defendant’s factual
assertions regarding what took place at the scene of
the shooting. Specifically, he denies that Defendant
accurately stated the location of Plaintiff’s truck relative to the other vehicles. (ECF No. 71 at 8–9.) Plaintiff denies that his vehicle made contact with Ms.
Nix’s vehicle before the gunshot. (Id. at 9.) Plaintiff
denies that his hands were on the steering wheel at
the time of the gunshot. (Id.) Lastly, Plaintiff denies
that his truck made any significant movement—at all,
or towards defendant—in the moment prior to the

36a
shooting. (Id. at 10.) To support these denials, Plaintiff cites to the deposition testimony of Deputy Klaus
and Sarah Nix, whose stories are detailed below.
Plaintiff’s own deposition testimony is limited by
Plaintiff’s diminished memory of the events of January 31, 2014. (See ECF No 62-11.) Plaintiff has no
memory of any police patrol vehicles and remembers
very little of his driving on I-70 that day. (Id. at 7–8.)
Before losing consciousness from the gunshot, Plaintiff remembers being stopped in traffic with a car in
front of him. (Id. at 9.) Plaintiff does admit that his
vehicle moved slightly after stopping at the scene of
the shooting. (ECF No. 71 at 8.)
Nevertheless, Plaintiff contends that his truck’s
wheels were facing straight ahead at the time of the
gunshot. (ECF No. 71-1 at 57–62.) He does not recall
hitting the vehicle in front of him at any time. (ECF
No. 62-11 at 9.)
3.

Deputy Klaus

When the vehicles reached the location of the
shooting, Deputy Klaus observed Plaintiff’s truck
back up “about one foot.” (ECF No. 62-2 ¶ 26–28.) Deputy Klaus saw Defendant exit his patrol vehicle, and
assumed that traffic ahead of the truck was stopped.
(Id. ¶ 30.) Deputy Klaus exited his patrol vehicle as
well and approached Plaintiff’s truck from the driver’s
side. (Id.) Deputy Klaus noticed Plaintiff’s truck moving back and forth “slightly” but he commented that
“[i]t wasn’t the tires turned and trying to dodge
through right then and there [sic].” (ECF No. 71-1 at
50.) Deputy Klaus heard a loud pop sound, and assumed Defendant had tased the driver. (ECF No. 622 ¶ 34.) He reached through the open driver-side window, unlocked the door, pulled Plaintiff out of the

37a
truck, and handcuffed him. (Id.) Defendant informed
Deputy Klaus that Plaintiff had been shot, so Klaus
removed Plaintiff’s handcuffs and applied pressure to
his wound. (Id.)
4.

Sarah Nix

Sarah Nix saw and heard Defendant’s patrol vehicle behind her, and pulled to the left on the highway.
(ECF No. 62-6 at 2.) Ms. Nix stopped her vehicle and
noticed Plaintiff stop his vehicle behind her, while Defendant’s patrol vehicle was stopped to the right of
Plaintiff. (Id. at 4.) Ms. Nix heard Defendant over a
loudspeaker “yelling . . . ‘Turn off your vehicle.’” (Id.
at 3.) She eventually realized that Defendant was
speaking to Plaintiff, and not her, so she began to pull
forward. (Id. at 4) However, each time she pulled forward, both Plaintiff and Defendant also pulled forward. (Id.) Ms. Nix didn’t want Defendant to become
angry, so she “stay[ed] put” for the rest of the incident.
(Id. at 4–5.) Ms. Nix estimated that, at this time,
Plaintiff’s truck was about 6 to 12 inches behind her
vehicle. (Id. at 6.) She also noted that her vehicle was
further to the left on the road than was Plaintiff’s
truck. (Id.)
Ms. Nix noticed Defendant open his door to exit
his patrol vehicle. (Id. at 7.) Some time after that,
within a single second, Ms. Nix heard a pop, she saw
Plaintiff slump over in his seat in her rear-view mirror, and Plaintiff’s truck hit her vehicle. (Id. at 27–28.)
She is not certain which of these events happened
first. (Id. at 28.) Ms. Nix described the contact from
the vehicles colliding as “a tap.” (Id. at 28.) Ms. Nix
asserts that this was the first and only time that
Plaintiff’s truck contacted her vehicle. (Id. at 33.)

38a
II. LEGAL STANDARD
Summary judgment is appropriate only if there is
no genuine issue of material fact and the moving party
is entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(c); Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986); Henderson v. Inter-Chem Coal Co., Inc., 41
F.3d 567, 569 (10th Cir. 1994). Whether there is a genuine dispute as to a material fact depends upon
whether the evidence presents a sufficient disagreement to require submission to a jury or, conversely, is
so one-sided that one party must prevail as a matter
of law. Anderson v. Liberty Lobby, 477 U.S. 242, 248–
49 (1986); Stone v. Autoliv ASP, Inc., 210 F.3d 1132
(10th Cir. 2000).
A fact is “material” if it pertains to an element of
a claim or defense; a factual dispute is “genuine” if the
evidence is so contradictory that if the matter went to
trial, a reasonable jury could return a verdict for either party. Anderson, 477 U.S. at 248. The Court must
resolve factual ambiguities against the moving party,
thus favoring the right to a trial. Houston v. Nat’l Gen.
Ins. Co., 817 F.2d 83, 85 (10th Cir. 1987).
III. ANALYSIS
In his Motion, Defendant argues that he is entitled to summary judgment based on the doctrine of
qualified immunity. (ECF No. 62 at 1.) When a defendant asserts qualified immunity at the summary
judgment stage, “the burden shifts to the plaintiff to
show that: (1) the defendant violated a constitutional
right and (2) the constitutional right was clearly established.” Morris v. Noe, 672 F.3d 1185, 1191 (10th
Cir. 2012). If Plaintiff cannot meet this burden, qualified immunity will apply and Defendant will be
shielded from liability on Plaintiff’s § 1983 claim.

39a
Plaintiff contends that Defendant used excessive
force when he shot Plaintiff, in violation of Plaintiff’s
Fourth Amendment right against unreasonable seizure. (ECF No. 71 at 1.) Plaintiff further argues that,
at the time of the shooting, clearly established law indicated that Defendant’s use of deadly force was constitutionally unreasonable. (Id. at 2.) The Court will
address each of these arguments, in turn.
B. Constitutional Violation
Claims of excessive force by law enforcement officers arise under the Fourth Amendment and are analyzed under the Fourth Amendment’s “objective reasonableness” standard. Graham v. Connor, 490 U.S.
386, 388 (1989). “The question is whether the officer[‘s] actions are ‘objectively reasonable’ in light of
the facts and circumstances confronting [the officer],
without regard to [the officer’s] underlying intent or
motivation.” Id. at 397. Reasonableness is evaluated
under a totality of the circumstances approach, which
requires that the Court consider and balance three
factors: (1) “the severity of the crime at issue,” (2)
“whether the suspect poses an immediate threat to the
safety of the officers or others,” and (3) “whether he is
actively resisting arrest or attempting to evade arrest
by flight.” Thomson v. Salt Lake Cnty., 584 F.3d 1304,
1313 (10th Cir. 2009) (quoting Graham, 490 U.S. at
396). When the allegedly excessive force is “deadly
force”1 then the force is “justified only if a reasonable
officer in the officer’s position would have had probable cause to believe that there was a threat of serious

The Court considers a gunshot to Plaintiff’s body to be “deadly
force.” Deadly force is such force that creates substantial risk of
causing death or serious bodily harm. Thomson, 584 F.3d at
1313.
1

40a
physical harm to himself or others.” Cordova v. Aragon, 569 F.3d 1183, 1192 (10th Cir. 2009) (emphasis
added).
1.

Defense of Self

Defendant first argues that his use of deadly force
was reasonable because Plaintiff’s use of his vehicle
presented an imminent threat of serious physical
harm to the officer himself. (See ECF No. 62-1 at 22–
23.) An officer may generally use deadly force if
threatened by a weapon, which may include a vehicle
attempting to run over the officer. Thomas v. Durasanti, 607 F.3d 655, 664 (10th Cir. 2010). Defendant
asserts that Plaintiff’s truck moved towards him immediately prior to the gunshot, and thus he reasonably believed that a use of deadly force was justified to
prevent the serious physical harm of being pinned between Plaintiff’s truck and his own patrol vehicle.
(ECF No. 62-1 at 29–30.)
In assessing the reasonableness of Defendant’s
belief, the Court notes that several key facts are disputed between the parties, specifically regarding what
took place at the final location of the shooting at mile
marker 228.5. The Court must consider “whether the
evidence, viewed in the light most favorable to the
party asserting the injury, shows that the alleged
wrongdoer violated a constitutional right.” Hays v. Ellis, 331 F.Supp. 2d 1303, 1307 (D. Colo. 2004.) Viewing the evidence in the light most favorable to Plaintiff, a reasonable jury could conclude that, at the time
of the shooting, Plaintiff’s truck was stationary or engaged in slight rocking movements (ECF Nos. 62-11
at 9, 71-1 at 50), the truck’s wheels were facing directly forward (ECF No. 71-1 at 57–62), and the front
of the truck was within 6 inches of Ms. Nix’s vehicle

41a
(ECF No. 62-6 at 6). In addition, a reasonable jury
could conclude that Defendant was standing near the
passenger-side door of Plaintiff’s truck and not directly in front of or behind the truck. (ECF No. 62-3 at
2.) On these facts, Defendant would not appear to be
endangered by any movements of Plaintiff’s vehicle.
Defendant cites to Thomas v. Durasanti, 607 F.3d
655, 664 (10th Cir. 2010), a Tenth Circuit decision in
which the court found no Fourth Amendment violation by a police officer who fired his weapon at individuals inside a moving vehicle. However, in that
case, the police officer defendant “undoubtedly was in
the [vehicle’s] path” when his first shots were fired.2
favorable to Plaintiff, Defendant was not undoubtedly
in the vehicle’s path, since Plaintiff’s truck was not
moving in the direction of Defendant. Since a reasonable jury could find that Plaintiff’s vehicle was not
moving towards Defendant at the time of the shooting,
the Court cannot say as a matter of law that a reasonable officer in Defendant’s position would have had
probable cause to believe that there was a threat of
serious physical harm to himself.
Additionally, in conducting a reasonableness
analysis regarding excessive force, the Court must
also consider “whether [Defendant’s] own reckless or
deliberate conduct . . . unreasonably created the need
to use force.” Thomas, 607 F.3d at 664. The question,

The officer in Thomas also fired additional shots when not in
the path of the vehicle which were deemed to be reasonable by
the Tenth Circuit. Thomas, 607 F.3d at 666. However, this was
because the officer was struck by the vehicle between his first
and second sequence of gunshots, and the Court found his misperception to be reasonable given this “disorienting experience.”
Id.

2

42a
here, is whether Defendant’s conduct in exiting his vehicle in the middle of a highway, within feet of multiple vehicles, was reckless in a way that created the
need to use deadly force. Plaintiff provides an affidavit
of Lou Reiter, a former police officer for 20 years. (ECF
No. 71-5 at 1.) According to Reiter, Defendant’s attempt to stop Plaintiff from driving erratically was a
“high-risk stop.” (Id. at 2.) Reiter asserts that, during
high-risk stops officers are trained not to approach the
person being stopped until that vehicle is not operational. (Id.) If the vehicle remains operational, the officer is trained to wait for adequate backup and to
treat the situation as a “barricaded subject” incident.
(Id. at 2–3.) Reiter says that Defendant’s actions in
exiting his vehicle were “reckless” and could have
“cause[d] him to . . . resort to the use of unreasonable
force.” (Id. at 3.) Because a reasonable jury could accept that view of Defendant’s conduct, a question remains as to whether Defendant unreasonably created
the need to use force.
Defendant also argues that even if Plaintiff’s vehicle was not moving towards Defendant, Plaintiff
could still be justified due to his mistaken belief that
the truck was moving towards him. Saucier, 533 U.S.
at 205 (“If an officer reasonably, but mistakenly, believed that a suspect was likely to fight back, for instance, the officer would be justified in using more
force than in fact was needed.”) Of course, Defendant
is not entitled to any mistaken belief, only reasonable
ones. Here, Defendant’s potential mistaken belief that
Plaintiff was driving towards him would be unreasonable taking the facts in the light most favorable to
Plaintiff. A reasonable jury could find that Plaintiff’s
vehicle was essentially stopped in traffic, his wheels
were facing forward, and that he never struck Ms.
Nix’s vehicle until after the gunshot. Deputy Klaus

43a
admits that he did not hear Plaintiff’s “engine revving.” (ECF No. 71-1 at 50.) On these facts, it would
be unreasonable for Defendant to mistakenly believe
that Plaintiff rammed the car in front of him, the
wheels of Plaintiff’s truck turned to the right, and
Plaintiff’s truck accelerated towards him.
Therefore, to the extent Defendant claims that he
was acting in order to defend himself, the Court cannot conclude as a matter of law that Defendant acted
in an objectively reasonable manner.
2.

Defense of Others

In his Motion, Defendant argues that a reasonable
officer in his position would have had probable cause
to believe that there was a threat of serious physical
harm to others: i.e., the other drivers on I-70. (ECF
No. 62-1 at 27–28.) In viewing the facts in a light most
favorable to Plaintiff, Plaintiff’s vehicle was not moving significantly prior to the shooting. Furthermore,
there was little space, if any, for Plaintiff’s truck to
escape from the box created by the guardrail and Defendant’s, Klaus’s, and Nix’s vehicles. Also, certain
facts indicate that the confined conditions of the road
were not going to be alleviated any time soon. Deputy
Klaus asserts that when Defendant exited his vehicle,
it indicated to him that traffic was not moving in front
of Plaintiff’s truck. (ECF No. 62-2 ¶ 30.) A jury could
reasonably infer that Defendant would not have exited his vehicle if he thought it was possible that
Plaintiff had the ability to drive away. In fact, Defendant himself stated as much when he asserted that he
positioned his patrol vehicle so that he could exit the
car “without giving the driver of the truck an opening.” (ECF No. 62-3 at 2.) Thus a reasonable jury could

44a
find that Plaintiff could not have escaped or accelerated enough to cause serious physical harm to other
drivers.
Defendant cites two Eleventh Circuit cases—
which are not binding on this Court—to support his
position that Defendant acted reasonably to defend
others. First, Defendant cites Robinson v. Arrugueta,
415 F.3d 1252 (11th Cir. 2005) for the proposition that
a suspect’s slow driving does not preclude a finding
that an officer was reasonable in using deadly force.
In that case, a driver was moving at one or two miles
per hour when he was shot by an officer. Id. at 1254.
However, in that case, the plaintiff was driving directly towards an officer who shot to defend himself
from serious harm. Id. Those are not the facts of the
case at hand, when viewed in a light most favorable to
Plaintiff. Second, Defendant cites Pace v. Capobianco,
283 F.3d 1275 (11th Cir. 2002) for the proposition that
an officer may be reasonable in using deadly force
even when a suspect’s vehicle had come to a stop.
However, in that case, the court specified that the
suspect’s vehicle came to a stop for “at most, a very
few seconds” and that the officer fired shots “within a
moment” of the vehicle stopping. Id. at 1278. In the
case at hand, given the evidence in the record, a reasonable jury could find that Plaintiff was stopped in
traffic or moved only minimally for more than a few
seconds.3

A more relevant Eleventh Circuit case would be Morton v. Kirkwood, 707 F.3d 1276 (11th Cir. 2013). In that case, Officer Kirkwood shot a driver, Mr. Morton, and alleged that Morton had accelerated towards him when he was standing in front of the car.
Id. at 1282. However, the court found that Kirkwood was not en3

45a
Defendant also attempts to rely on Plaintiff’s reckless driving before arriving at the location of the
shooting, as evidence that the use of deadly force was
justified. However, in his deposition, Defendant asserts that he “really hadn’t been behind [Plaintiff]
long enough to determine he was intoxicated. I didn’t
see all his driving.” (ECF No. 62-4 at 25.) He continues, “all I knew was I was dealing with a person who
desperately wanted to get away from law enforcement.” (Id.) In viewing the facts in a light most favorable to Plaintiff, Plaintiff was not evading law enforcement once he was stopped in traffic at mile marker
228.5. Furthermore, Plaintiff’s earlier evasive driving
is not sufficient on its own to permit a use of deadly
force. The Court reiterates that “deadly force is justified only if a reasonable officer in the officer’s position
would have had probable cause to believe that there
was a threat of serious physical harm to himself or
others.” Cordova, 569 F.3d at 1192 (emphasis added).
In Cordova, the Tenth Circuit addressed the distinction between reckless driving and presenting a
threat of serious physical harm to others. In that case,
Mr. Cordova repeatedly refused to stop for patrol cars
with lights and sirens activated, twice drove off the
road to avoid spike strips, ran through two red lights,
and began to drive in the wrong direction on the highway, I-76. Cordova, 569 F.3d at 1186. At that point,
Mr. Cordova was fatally shot by an officer. Id. at 1187.
Nevertheless, the Tenth Circuit held that “when an
officer employs such a level of force that death is
nearly certain, he must do so based on more than the
titled to qualified immunity based on the facts as alleged by Morton, who asserted that his car was stationary, and his hands were
off the steering wheel. Id. at 1279, 1282.

46a
general dangers posed by reckless driving.” Id. at
1190. In that case, the Court found that a legitimate
dispute of fact existed as to whether there were any
other motorists in the immediate area who would
have been put in risk of serious physical danger from
Mr. Cordova’s actions.4 Thus, despite Mr. Cordova’s
reckless driving, the Tenth Circuit held that it could
not say that the defendant officer acted reasonably, in
shooting Mr. Cordova, given the existing disputes of
fact in the record. Id. at 1191-92.
Mr. Cordova was arguably more reckless in his
driving than Plaintiff in the case at hand. Therefore,
reckless driving on its own was not legally sufficient
to justify the use of potentially deadly force by Defendant against Plaintiff.
Lastly, in performing its reasonableness assessment, the Court will consider whether the type of
deadly force used by Defendant was justified in this
situation. The Tenth Circuit has held that the Supreme Court “strongly suggests that the reasonableness balancing must take into account that there is a
spectrum of ‘deadly force’”. Cordova, 569 F.3d at 1189
(citing Scott v. Harris, 550 U.S. 372 (2007)). “[J]ust because a situation justifies ramming [a vehicle] does
not mean it will justify shooting a suspect in the
head.” Id. In the case at hand, due to the close quarters and slow speed of the traffic jam, Plaintiff’s driving posed a relatively low risk to those sitting in vehicles around him. A reasonable jury could conclude
that shooting Plaintiff in these circumstances was entirely disproportionate to the risk to others created by
In Cordova, the issue as to whether the defendant officer was
in immediate danger himself was not raised on appeal. Cordova, 569 F.3d at 1187.
4

47a
a low-speed traffic accident. Ramming Plaintiff’s vehicle to push him off the road and ensure that he could
not continue driving could have served Defendant’s intentions of “protecting others” without so certainly
risking significant injury to Plaintiff. Furthermore, if
ramming is preferable to shooting in certain situations, it also follows that non-deadly force is preferable to deadly-force if it would adequately protect the
interests of safety. Given that seconds after Defendant’s gunshot, Deputy Klaus was able to reach into
Plaintiff’s vehicle, open the door, and pull him out, a
reasonable jury could find that shooting Plaintiff was
not justified in this situation.
Thus, to the extent that Defendant claims he
acted in a manner calculated to defend third parties
from harm, the Court cannot conclude that as a matter of law the Defendant acted in an objectively reasonable manner. Under a set of facts which a reasonable jury could find to be true, Defendant did not act
in an objectively reasonable manner and, therefore,
violated Plaintiff’s Fourth Amendment Right against
unreasonable seizure.
B. Clearly Established Constitutional Right
The question, here, is whether it was clearly established on January 31, 2014, that Defendant’s actions (based on a view of the facts most favorable to
Plaintiff) violated the Fourth Amendment. “Ordinarily, in order for the law to be clearly established, there
must be a Supreme Court of Tenth Circuit decision on
point . . . .” Zia Trust Co. ex rel. Causey v. Montoya,
597 F.3d 1150, 1155 (10th Cir. 2010). However, the
“Supreme Court has warned that ‘officials can still be
on notice that their conduct violates established law
even in novel factual circumstances.’” Casey v. City of

48a
Fed. Heights, 509 F.3d 1278, 1284 (10th Cir. 2007)
(quoting Hope v. Pelzer, 536 U.S. 730, 741 (2002)). According to the Tenth Circuit, the Hope decision
“shifted the qualified immunity analysis from a scavenger hunt for prior cases with precisely the same
facts toward the more relevant inquiry of whether the
law put officials on fair notice that the described conduct was unconstitutional.” Casey, 509 F.3d at 1284.
See also Saucier v. Katz, 533 U.S. 194, 202 (2001) (“If
the law did not put the officer on notice that his conduct would be clearly unlawful, summary judgment
based on qualified immunity is appropriate.”) The
Tenth Circuit has accordingly adopted a sliding scale
test to determine when law is clearly established. Casey, 509 F.3d at 1284. “The more obviously egregious
the conduct in light of prevailing constitutional principles, the less specificity is required from prior case
law to establish the violation.” Id.
Although none of the cases cited by the Court in
the prior section pertain to the exact same factual situation as Defendant faced on January 31, 2014, the
Court still concludes that Supreme Court and Tenth
Circuit precedent establish that Defendant’s actions—viewed in a light most favorable to Plaintiff—
violated Plaintiff’s Fourth Amendment rights. Graham, Cordova, Saucier, Thomson, Thomas, Scott, and
even Robinson, Pace, and Morton are all decisions
from before January 31, 2014. Given that precedent,
Defendant was on notice that it was unlawful for him
to use deadly force against Plaintiff, when he did, if
the facts of the situation were as Plaintiff asserts.
A court decision with “identical facts” is not required to “establish clearly that it is unreasonable to
use deadly force when the force is totally unnecessary
to restrain a suspect or to protect officers, the public,

49a
or the suspect himself.” Weigel v. Broad, 544 F.3d
1143, 1154 (10th Cir. 2008). Under a certain view of
the facts which a reasonable jury could accept, Plaintiff’s truck was stopped in traffic, the police had the
ability to remove Plaintiff from the truck or to impede
the progress of his truck without a firearm, the truck
never moved toward Defendant after he exited his patrol vehicle, and the truck was “bound in” such that it
could not pose a serious risk of physical harm to Defendant or others. Given those facts a reasonable jury
could conclude that it was totally unnecessary to use
deadly force to restraint the suspect or to protect officers and the public.
Thus, under at least one view of the facts that a
reasonable jury could adopt, Defendant violated a
clearly established right. There may be other interpretations that a jury could accept, some of which might
entitle Defendant to qualified immunity and others
which would not. The Court’s task at this summary
judgment phase is only to determine whether there is
any reasonable interpretation of the evidence that
would deprive Defendant of the defense of qualified
immunity. Here, such an interpretation exists, and so
the Court may not rule as a matter of law before trial
that Defendant is immune from suit. Summary judgment on qualified immunity grounds is therefore inappropriate.
IV. CONCLUSION
For the reasons set forth above, Defendant’s
Motion for Summary Judgment (ECF No. 62) is DENIED.
Dated this 5th day of August, 2016.
BY THE COURT:

50a

William J. Martínez
United States District Judge

51a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLORADO
Civil Action No. 15-cv-0128-WJM-NYW
CODY WILLIAM COX,
Plaintiff,
v.
DON WILSON, in his individual capacity
Defendant.
Filed: November 30, 2018
-----------------------------------------------------------------REPORTER’S TRANSCRIPT OF JURY TRIAL –
DAY 7, VOLUME VII
BEFORE THE HONORABLE WILLIAM J. MARTINEZ
UNITED STATES DISTRICT JUDGE
-----------------------------------------------------------------***
THE COURT: All right. So, you're referencing back
to your arguments at the first Rule 50(a) and your
summary judgment motion in response with respect
to qualified immunity and you're standing on that?

52a
MR. SCHERER: Yes, Your Honor.
THE COURT: Okay. All right. Thank you. All right.
I'm prepared to rule on the defendant's motion.
This matter is before me on defendant's oral motion, which was initially before me at mid-trial, but
judgment as a matter of law under Federal Rule of
Procedure 50(a). A jury trial on this case commenced
on Monday, August 13th, 2018. Plaintiff rested his
case on Thursday, August 16th. Defendant made his
Rule 50(a) motion at the time on matters of liability
and qualified immunity, and also as to past medical
losses.
Concerning past medical losses, I granted the defendant's motion given defendant's lack of evidence on
those matters. I reserved ruling as to the liability and
qualified immunity issues. For the reasons that follow, I deny the remaining portion of the defendant's
motion:
In considering defendant's Rule 50(a) motion, the
Court is required to consider all the evidence presented at trial, must review the record as a whole, and
must draw all reasonable inferences in favor of the
nonmoving party. "Credibility determinations, the
weighing of the evidence, and the drawing of legitimate inferences from the facts are jury functions and
not those of a judge." That from Reeves v. Sanderson,
530 United States 133 at 150, a 2000 opinion.
The Court may grant the motion only if the evidence points but one way and is susceptible to no reasonable inferences which may support the opposing
party's position. Bristol v. Board of County Commissioners of County of Clear Creek of all the counties -281 F.3d 1148, 1161, a Tenth Circuit decision from
2002.

53a
Defendant has moved for judgment as a matter of
law on plaintiff's sole claim for use of excessive force
during arrest in violation of the Fourth Amendment.
Plaintiff brought this claim under 42 United States
Code Section 1983. Plaintiff has the burden of establishing each essential elements of -- each essential element of this claim by a preponderance of the evidence. The elements of plaintiff's claim include, first,
that defendant deprived the plaintiff of his Fourth
Amendment right not to be subjected to unreasonable
force during apprehension or arrest; second, that defendant was acting under the color of state law; and,
third, that the defendant's acts were the proximate
cause of damages suffered -- or sustained, rather, by
the plaintiff.
The only element on which defendant moves for
judgment is the first element, whether unreasonable
force was used under the circumstances. Claims
based on the use of excessive force during arrests are
governed by the objective reasonableness standard of
the Fourth Amendment, following Graham v. Connor,
490 United States -- U.S. 386 at pages 394 to 395, a
1989 U.S. Supreme Court Decision.
To prevail, plaintiff must put forth sufficient evidence to show that defendant Wilson's use of force was
objectively unreasonable. "The question is whether
the officer's actions are objectively reasonable in light
of the facts and circumstances confronting the officer
without regard to the officer's underlying intent or
motivation." That is a quote from the Graham decision, 490 U.S. at 397.
Under Tenth Circuit precedent, the reasonableness of defendant's use of force is evaluated under a
totality of the circumstances approach. Factors to be
considered and balanced include the severity of the

54a
crime at issue, whether the suspect poses an immediate threat to the safety of the officers or others, and
whether he was actively resisting arrest. This is from
Thompson v. Salt Lake County, 583 F.3d 1304, at
1313, Tenth Circuit decision from 2009.
In addition, because defendant Wilson used
deadly force by shooting plaintiff, objective reasonableness depends on whether there was probable cause
to believe that there was a threat of serious physical
harm to the defendant, himself, or to others at the
time he used deadly force.
This is from Tenorio v. Pitzer, 802 F.3d 1160 at
page 1164, Tenth Circuit decision from 2015.
Taking all of this into account, the determination
of reasonableness depends on the particular facts and
circumstances in this case. Thompson, 583 F.3d at
1313.
The Tenth Circuit has ascribed this determination
as "the fact bound morass of reasonableness." That's
a great quote. Cordova v. Aragon, 569 F.3d 1183 -1183 at 1188, Tenth Circuit, 2009.
The factors which enter into this determination
are “only aids in make the ultimate determination,
which is whether from the perspective of a reasonable
officer on the scene, the totality of the circumstances
justify the use of force.” Tenorio, 802 F.3d at 1164.
Viewing the facts in the light most favorable to the
plaintiff, the Court finds that the plaintiff has introduced sufficient evidence to show that the use of force
against him was unreasonable under all the circumstances. First, a reasonable jury could rely on the testimony of Ms. Kincaid to conclude that plaintiff's vehicle was either stopped or barely moving within
inches behind her own vehicle and facing forward in

55a
the lane and not pointed to the left or the right at the
time the defendant decided to use deadly force.
Ms. Kincaid also testified that she does not remember plaintiff's car backing up or moving towards
defendant Wilson, and that plaintiff's vehicle was
trapped between her vehicle, the guardrail, and defendant Wilson's vehicle.
Ms. Kincaid testified that she remembered plaintiff's vehicle hitting her own at about the same time
when she heard defendant Wilson's shot and saw
plaintiff slump in his vehicle, but she did not remember plaintiff's vehicle hitting her at any other time -or at any time before.
She also testified that she could not say whether
she saw the plaintiff make any attempt to direct his
vehicle at the defendant. And Ms. Kincaid never testified that plaintiff's behavior caused her to fear for
her safety. From Ms. Kincaid's testimony, a reasonable jury could conclude that the plaintiff was unable
to move his vehicle from its position, that he was not
attempting to flee at the time Deputy Wilson discharged his sidearm, and that at the time of the shooting, plaintiff did not move his vehicle in a way that
put Deputy Wilson or others in imminent danger.
Second, a reasonable jury could similarly rely on
the testimony of Lieutenant Gremillion and the photographs and diagrams from the scene admitted into
evidence. This evidence and testimony tended to show
that plaintiff's vehicle was directed straight forward
in the lane and that the front wheels were not turned
in either direction, but were parallel to the direction
of travel. A reasonable jury could conclude from this
evidence that plaintiff did not move his vehicle in a

56a
manner that defendant Wilson could have reasonably
perceived as a threat to himself or others.
Third, Deputy Klaus testified that, once plaintiff
was pinned in, he did not move his vehicle in a threatening way. Deputy Klaus also testified that he had
drawn his taser at the scene rather than his sidearm,
and that after defendant shot plaintiff, Klaus assumed that Wilson had used a taser.
Deputy Klaus also testified that the moment -that the moment the shot was fired, he did not notice
plaintiff's vehicle make any movement that in his
view would put him in immediate danger of serious
bodily injury. From this testimony, a reasonable juror
could infer that Deputy Klaus viewed the use of nondeadly force, namely, a taser, rather than a firearm,
to be the appropriate response in this circumstance
and, thus, conclude that the use of a deadly force was
objectively unreasonable.
As to the Rule 50 motion as renewed after the
close of the defendant's evidence, additional evidence
adduced in the defendant's case in chief, could further
support a jury conclusion that the defendant's use of
deadly force was not objectively reasonable. In particular, Mr. Wilson's testimony presented a version of
events that is arguably inconsistent with his own
prior statements and incompatible with the versions
of events presented by Deputy Klaus and Ms. Kincaid,
respectively.
The most notable examples of incompatibilities
are two-fold. The first is Mr. Wilson's testimony that
plaintiff was repeatedly making contact with Ms. Kincaid's rear bumper and pushing her forward, in contrast to Ms. Kincaid's testimony of being hit once and

57a
sustaining nearly imperceptible damage to her rear
bumper.
The second is Mr. Wilson's testimony that plaintiff, after he was boxed in, was able to back up so far
that his front bumper was behind the rear bumper of
Mr. Wilson's own vehicle or, in other words, that
plaintiff had enough space behind him to back up and
create a car length gap between his vehicle and Ms.
Kincaid's vehicle. This is in contrast to Deputy Klaus'
testimony that he stopped his truck only a few feet behind plaintiff's vehicle and he did not move his truck
again until after -- hours after the incident.
Under Deputy Klaus' version, plaintiff could not
have backed up more than a few feet and certainly not
far enough so that any alleged right-turn maneuver
could have pinned Mr. Wilson between the front passenger side panel of plaintiff's truck and the rear driver's side wheelwell of Mr. Wilson's truck. From these
consistencies and incompatibilities, the jury could
conclude at a minimum that Mr. Wilson did not testify
truthfully. If the jury so concludes, it would be well
within the realm of reasonable inference that Mr. Wilson testified untruthfully because the actual facts did
not justify an objectively reasonable use of deadly
force.
I now turn to qualified immunity. "Qualified immunity shields federal and state officials from money
damages unless a plaintiff pleads facts showing, one,
that the official violated a statutory constitutional
right, and, two, that the right was clearly established
at the time of the challenged conduct." That from Ashcroft v. Al-kidd, A-l hyphen k-i-d-d, 563 United States
731 at 735, a 2011 decision from the Supreme Court.

58a
Assuming the jury credits evidence such as that I
already discussed and concludes that Mr. Wilson shot
plaintiff without any reasonable fear of his own or
other safety, then the first part of the qualified immunity test is satisfied.
As for whether the law was clearly established on
January 31, 2014, I reaffirm my analysis in my summary judgment order at ECF 100. However, in light
of Mr. Wilson's specific arguments made at this trial,
I note that this case cannot be properly analogized to
other so-called car chase cases, such as Borsseau, B-or-s-s-e-a-u, v. Haugen, H-a-u-g-e-n, 543 United States
194, 2004 decision from the Supreme Court, Scott v.
Harris, 550 United States 372, 2007 decision from the
Supreme Court, or Mullenix v. Luna, 136 S. Ct. 305, a
2015 decision. In all those cases, the Supreme Court
held on the record presented that the lawfulness or
unlawfulness of any potentially deadly measures used
to stop a fleeing motorist had not been clearly established. However, in all those cases, the relevant factual context was beyond dispute or viewed in the light
most favorable to the motorist.
Here, the factual context is highly disputed.
Given the facts in the light most favorable to the
plaintiff, as the Court must for purposes of Rule 50, a
jury could decide that the plaintiff posed no imminent
threat at the time he was shot and that no reasonable
police officer in the same circumstances could have
perceived an imminent threat. If the jury so concludes, the clearly established law prong does not require even greater specificity, such as a case about a
boxed-in motorist posing only a threat or a boxed-in
motorist in jammed ski traffic on I-70 posing no immediate threat. If the jury disbelieves the defendant

59a
and decides that no reasonable officer could have perceived the sufficient threat under these circumstances, defendant cannot argue that he was not fairly
warned that unreasonable discharge of his firearm is
just as unconstitutional against a boxed-in motorist as
would be against anyone else.
Finally, the Court must reject the defendant's argument that only the Supreme Court can create
clearly established law. This argument is based on
nothing more than passing comments in recent Supreme Court decisions. The Tenth Circuit has long
held that its opinions can create clearly established
law. Until the Tenth Circuit overrules itself on that
point, or the Supreme Court overrules the Tenth Circuit, I am bound to follow the Tenth Circuit. Consequently, the ability to create clearly established law is
not vested solely in the Supreme Court.
Having considered all relevant evidence both direct and circumstantial, and having applied the foregoing principles and standards of an analysis to the
existing evidentiary record, the Court finds and concludes as follows:
One, that there is a legally sufficient evidentiary
basis for a reasonable jury to find that the plaintiff has
prevailed on his Fourth Amendment excessive force
claim brought pursuant to 14 United States Code Section 1983 and, No. 2, that the defendant is not entitled
to judgment as a matter of law on this claim.
Therefore, it is ordered that the defendant's midtrial oral motion for entry of judgment as a matter of
law made under Rule 50(a)(1), as renewed by the defendant at the close of all the evidence, is granted with
respect to plaintiff's claim for past medical expenses

60a
but is denied in all other respects. All right. Are there
any other motions?

